 

 

In the Supreme Court of the United States

JOHN SILVIA, JR.,

Petitioner
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 35 pages. I declare under penalty of perjury
that the foregoing is true and correct.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 11, 2020

Henry B. Brennan

20 Park Plaza, Suite 400
Boston, MA 02116

(617) 201-5977
hb@hbjustice.com
Attorney for John Silvia
